&

&

No. 21-

FILED
SEP 3 0 2021

In The

SUPREME^UR^n1^

Supreme Court of the United States
October Term 2021

Michael B. Ellis and Robert A. McNeil
Petitioners,
On Petition for a Writ of Certiorari
to the D.C. Circuit Court of Appeals
to REMOVE Appeal No. 21-5132:
Ellis & McNeil v. USA,
Pursuant to Supreme Court Rule 11
PETITION FOR A WRIT OF CERTIORARI
Michael B. Ellis
In propria persona
5052 NECR 2020
Rice, Texas 75155
(903) 326-6263
Robert A. McNeil
In propria persona
729 Grapevine Hwy #148
Hurst, Texas 76054
(713) 806-5199
October 8,2021

TWO QUESTIONS PRESENTED FOR REVIEW
Question 1:
Do courts of appeal nationwide exhibit a pattern and
practice of refusing to adjudicate EVERY issue
presented
by
the
Class
of
disrespected,
unrepresented litigants filing appeals arising from
the underlying institutionalized IRS record
falsification program, and from the open support
thereof by involved U.S. district judges?
Question 2:
When U.S. district judges are credibly accused of
committing explicit acts of misconduct via sworn
§§455 and 144 motions filed by litigants, should the
judges recuse from further participation in cases
involving those victims/litigants?1

1 The extra-judicial misconduct of The Honorables Christopher
Reid Cooper and Amy Berman Jackson on September 27, 2016
is detailed below, Question 2., Pg. 12.

PARTIES TO THE PROCEEDING
Michael B. Ellis & Robert A. McNeil
Petitioners In Propria Persona
The United States Court of Appeals for the
District of Columbia Circuit
Respondent

ii

TABLE OF AUTHORITIES
Cases
Crumpacker v. Ciraolo-Klepper, 17-5054,
D.C. Circuit...........................................
Darst v USA, 21-1292,
Middle District of Florida

8

FN 2, FN 7

DeOrio v. Ciraolo-Klepper, 16-2089,
District Court for D.C.................

14

DeOrio v. Ciraolo-Klepper, 17-5057,
D.C. Circuit.................................

8

DePolo v. Ciraolo-Klepper, 16-5308,
D.C. Circuit.................................

8

Dwaileebe v. Martineau, 17-5058,
D.C. Circuit..............................

9

Ellis v. Comm’r., 14-471,
District Court for D.C

3, FN 18

Ellis v. Comm’r., 15-5035,
D.C. Circuit.................

8, 11, FN 15, FN 20

Ellis v. USA, 21-5132,
D.C. Circuit..........

1, 4, 11, 20, FN 16

Ford v. USA, 18-17217,
9th Circuit...............

9, 10

Howe v. USA, 21-35125,
9th Circuit......................

9, FN 23

V

Howe v. The Hon. David C. Nye, 21-70662,
9th Circuit....................................................

9, 10
FN 21

Kurzv. U.S., 19-310
Kurz v. U.S., 19-2985,
8th Circuit...............

9

McGarvin v. Ryan O. McMonagle, 17-5055,
D.C. Circuit..................................................

8

McNeil v. Comm’r, 16-5233,
D.C. Circuit......................

8

Olmstead v. United States, 277 U.S. 438
FN 12, FN 23
Podgorny v. Ciraolo-Klepper, 17-5056,
D.C. Circuit........................................

8

Safe Air for Everyone v. Meyer, 373 F. 3d 1035,
9th Circuit, 2004..................................................... FN 23
USA v Darst, 13-cr-181,
Middle District of Florida

FN 2, FN 7

USA v Darst, 21-12485,
Middle District of Florida

FN 2

USA v. Ebenezer K. Howe IV, 19-421
..........................FN 2, FN 5, FN 7, FN 9, FN 10, FN 22
USA v. Ebenezer K. Howe IV, 21-35682

FN 2

USA v Ford, 17-00187

9, 10
FN 21

US. v. Torrance, 18-1631
vi

Statutes
5, FN 8

26 U.S.C. §6020(b)
28 U.S.C. §144

i, iii, 2, 3,12,15

28 U.S.C. §455

i, iii, 2, 3,12,15

28 U.S.C. §1254(1)

1

28 U.S.C. §2101(e)

1

28 U.S.C. §2255

FN 22

Evarts Act

15, 16

Rules
FRCP 12(b)(1)

FN 23

FRE 201

12

FRE 210

8

SCR 10(a)

2, 19, 20

SCR 11

1, 5, 19

Publications
Internal Revenue Manual §5.1.11.6.7.....

..... FN 8

Money magazine, April, 1990

FN 6

Revenue Officer’s Training Manual,
(Unit 1, Pg. 23-2).........................

FN 8

vii

TABLE OF CONTENTS
Page
TWO QUESTIONS PRESENTED FOR REVIEW., i
PARTIES TO THE PROCEEDING

••
11

TABLE OF AUTHORITIES

v

JURISDICTION

1

STATEMENT OF THE CASE

1

Introduction

3

Current Pending Litigation

4

ARGUMENT

8

THREE Reasons for Granting Petition

15

1. The pattern and practice of involved Court
Of Appeals judges violates the Evarts /
Judiciary Acts and the rights of litigants to
meaningful access to courts
15
2. The practice is producing utter chaos in
district courts..................................................... 15
3. Judges who are credibly accused via sworn,
explicit §§455 and 144 motions of committing
arguable misconduct in support of a litigant
MUST recuse from litigation involving their
victims
15
Relief Requested

19

iii

APPENDIX
APPENDIX A - U.S. District Court
Opinion and Order
May 26, 2021........

iv

a

JURISDICTION
Under Supreme Court Rule 11, “when a case is of such
imperative public importance as to justify deviation
from normal appellate practice and to require
immediate determination in this Court”, it has power
to remove a pending appeal for decision here. 28 U.S.C.
§2101(e) and 28 U.S.C. §1254(1). When a petition
involves extensive, explicit allegations of misconduct
occurring in the Courts below, the Supreme Court’s
supervisory jurisdiction can be invoked per SC Rule 10.
STATEMENT OF THE CASE
This is a third Petition seeking to terminate the
pattern and practice of courts of appeal nationwide
destroying the due process rights of the Class of
disrespected, unrepresented victims / litigants
complaining of the underlying IRS record
falsification program, and of the open support thereof
by involved district court judges.2
Currently pending in the United States Court of
Appeals for the District of Columbia Circuit is
appeal, 21-5132, Ellis v. USA. When briefed, it will
concern at least the two issues noted above.

2 Please see the recently filed Petition of Mr. Gregory A.
Darst, filed on September 24, 2021, originating from his
filing of a Coram Nobis Motion in the Middle District of
Florida, (13-cr-181 and 21-cv-1292), and arising through
the Eleventh Circuit (21-12485), and see the newly filed
Petition of Mr. Ebenezer K. Howe, originating in an
ongoing forfeiture in the U.S. District Court for the
District of Idaho (2:19-cv-421) and arising through the
Ninth Circuit, (21-35682).
1

Specifically, Petitioners seek termination of the
practice of courts of appeal refusing to adjudicate
EVERY issue raised by disrespected, unrepresented
litigants complaining of the IRS record falsification
program, and the open support thereof by involved
district judges.3
The pattern practiced by courts of appeal nationwide
is also destroying access by victims of the
institutionalized IRS record falsification scheme to
this Court, (by leaving “nothing to appeal”). Thus,
Question 1. is of manifest “imperative public
importance” justifying “deviation from normal
appellate practice”.
That said, although the usual practice of the U.S.
Circuit Court of Appeals for the District of Columbia
Circuit is to appear nominally ""‘open for business”
and the Clerk accepts filing fees, issues briefing
schedules, etc., that Circuit, as the progenitor of the
pattern and practice of which we complain, will
ensure its practice is never addressed/adjudicated.
Hence, this Court is the ONLY forum that can
adjudicate the issue, pursuant to S.C. Rules 11 and
10(a).
In Question 2., we are seeking determination
concerning the refusal of The Hon. Christopher R.
Cooper to recuse in the face of our sworn §§144 and
455 Motions to Recuse, wherein we explicitly
identified his extra-judicial collusion with The Hon.
Amy Berman Jackson.
3 The pattern is proven by past denials of relief in TWELVE
fully-paid appeals, as identified below.
2

Specifically, Plaintiffs have set forth sworn evidence
The Honorables Cooper and Jackson colluded on
September 27, 2016 to manipulate five Class cases
off the dockets of other U.S. District judges in the
District of Columbia, to consolidate the total of six
Class cases on the docket of Mr. Cooper in
preparation for dismissal, to falsify the records with
respect to relief sought,4 thus ensuring all cases were
dismissed based on the fabrication of Ms. Jackson in
dismissing 14-471, Ellis v. Commissioner, detailed
below. Moreover, the ultimate goal of the involved
judges was to justify sanctioning Petitioners in order
to denigrate/destroy their cause and prevent them
from assisting other unrepresented American victims
of the underlying IRS record falsification program.5
Petitioners contend that, in the face of well-pled
sworn, explicit allegations, filed pursuant to 28
U.S.C. §§455 and 144, district judges must recuse
from all further litigation involving their alleged
victims.
Introduction
As sketched below, IRS’ institutionalized record
falsification program is an ongoing assault on the due
process rights of those Americans who have noted and
rely on multiple public statements by various IRS
Commissioners that “The income tax is voluntary”.6
4 Thereby, the Hon. Judges drew the six cases simultaneously,
by fraud, within the prohibitions of the Anti-Injunction Act, as
shown below.
6 See 19-421, Doc. 76 for full details, sketched briefly below, (at
Question 2., pg. 10, infra.)
6 Here are just two of many examples: "We don't want to lose
voluntary compliance... We don't want to lose this gem of
3

Sadly, during litigation to enjoin the institutionalized
falsification of federal (IRS) records, the due process
rights of disrespected, unrepresented Class litigants
have been again gutted, this time by involved U.S.
district court judges.
To add insult, after the filing of numerous fully-paid
appeals seeking meaningful appellate relief from the
underlying IRS record falsification program and from
the open support thereof by involved district judges, a
conscience-shocking pattern and practice has now
emerged:
No issue raised in ANY appeal by the
disrespected, unrepresented litigants
has been adjudicated.
That is, beginning during the leadership of Mr.
Merrick Garland, then Chief Judge of the U.S. Circuit
Court of Appeals for District of Columbia, courts of
appeal started issuing denials of appellate relief while
refusing to adjudicate EVERY issue raised, using the
wrong standard of review, over the names of judges
who LIKELY had no involvement in the appeal.
Current Pending Litigation
This is a case concerning procedural issues of
unmatched significance and first impression. As noted
above, since our D.C. COA appeal 21-5132, Ellis v.
voluntary compliance." Fred Goldberg, IRS Commissioner,
Money magazine, April, 1990. Goldberg confirmed the 1953
SWORN testimony of Dwight E. Avis, head of the Alcohol and
Tobacco Tax Division of the Bureau of the Internal Revenue
before the House Ways and Means Committee of the EightyThird Congress: "Let me point this out now: Your income tax is
100 percent voluntary tax, and your liquor tax is 100 percent
enforced tax. Now, the situation is as different as night and
day."
4

USA is currently pending, and the questions we would
raise there (and here) remain undecided, removal is
authorized by SCR 11. Confirming the existence of the
practice and terminating it, is also effectively within
the supervisory power of this Court via Supreme Court
Rule 10(a).
Backstory: IRS’ Record Falsification Program
The following FIVE facts are incontrovertible and
confirmed in multiple sworn Declarations by CoPetitioner/forensic accountant, Mr. Robert A. McNeil,
which are incorporated fully by reference herein as
support for this Petition.7
a. Multiple IRS Leaders/Commissioners have
conceded that the income tax is “voluntary”. [See
Footnote 6 for two of many examples.]
b. IRS has repeatedly conceded that the core statute
supposedly authorizing preparation of substitute
tax returns, 26 U.S.C. §6020(b), does NOT apply
to income tax.8
7 Please see the Declaration of Petitioner/forensic accountant
McNeil concerning three American victims of the IRS program,
1.) U.S.D.C. Idaho, U.S. v. Howe, 19-421, Doc. 61-1, 2.) U.S.
District Court for the Eastern District of California, U.S. v.
Ford, and 3.) U.S. v. Darst, 13-cr-181 (Doc. 119-1) or 21-cv-1292,
(Doc. 2-1). The fraud never varies, hence is invariable.
8 The authority to perform substitutes for return is discussed in
the published Internal Revenue Manual §5.1.11.6.7, which
shows that such authority is limited to matters involving
“employment, excise and partnership taxes”, and does not
include
the
tax.
mcome
[Link
here:
http://www.irs.gov/ir m/part5/irm 05-001-01 lr-contO 1 .html.
scroll down to 5.1.11.6.7 “IRC 6020(b) Authority”.] The Privacy
Impact Assessment IRS issues concerning 6020(b) precisely
confirms that limitation. [Link here: http://www.irs.eov/pub/irs5

c. IRS’ core software (“IMF”) is built to precisely
support those twin public concessions in a. and b.
above, i.e., IRS’ published procedural manuals
reveal that the IMF software will “unseat’Vreject
any attempt to enter alleged deficiency amounts
supposedly owed by a “non-filer”, unless the IMF
software for that given year is first falsified to
reflect IRS’ pretended receipt of a return from the
targeted victim.9
d. To justify attacking Americans via non-judicial
liens/levies or via criminal or civil forfeiture
litigation, IRS INVARIABLY and repeatedly
falsifies its core, controlling digital (Individual
Master File) records concerning victims, for each
targeted year, to cause that record to falsely
reflect
1. IRS’ receipt from victims Government
attorneys label “non-filers” of 1040A
returns supposedly filed for each year on
claimed dates, and to falsely reflect
2. The preparation by IRS of substitute tax
returns for all targeted years on yet other
claimed dates despite the fact no
substitute income tax returns are ever
pia/auto 6020b-pia.pdf! In the Revenue Officer’s Training
Manual. (Unit 1, Page 23-2) the Commissioner concedes: “The
IRM restricts the broad delegation shown in figure 23-2
(6020(b))... to employment, excise and partnership tax returns
because of constitutional issues”. Emphasis added.
9 See, for example, the sworn Declaration of Robert A. McNeil,
[See 2:19-cv-421-CWD, Doc. 61-1, Declaration of Forensic
Accountant Robert A. McNeil.] presenting IRS’ published
manuals detailing precisely how IRS employees bypass the
security protections written into IRS’ all-controlling Individual
Master File software.
6

signed/prepared by IRS concerning “nonfilers” on any date, let alone those shown
in IRS’ falsified digital records, and paper
records derived therefrom.
In short sum, the systematic, invariable falsification
of federal records concerning those IRS attacks and
labels “non-filers” 10 supports the Commissioners’
claims the income tax is voluntary.11
As a necessary corollary to those facts, since
Congress could never impose a duty upon Americans
requiring commission of crime (falsification of federal
records) by a Government agency to enforce,12 socalled “non-filers” owe nothing to the Treasury.
Ipso facto, the United States is not a creditor,
“Notices of Lien” are fraudulent, and ALL litigation
involving those who “fail to file”, i.e., “non-filers” is
voidable, since based on the unclean hands of the
Government.

10 The sworn Declaration of forensic accountant Robert McNeil
included in 21:19-cv-421 as Doc. 61-1 is proof the falsification of
IRS records concerning me is not an isolated incident. In every
case involving targeted “non-filers”, it is IRS’ invariable,
institutionalized mode of attack.
11 It is not Plaintiffs who claims the income tax is voluntary. It
is the top administrators of the Internal Revenue Service. [See
Footnote 6 above, for two examples.]
12 In Olmstead v. United States, 277 U.S. 438, in Justice
Brandeis’ incomparable dissent, he explained: “When these
unlawful acts were committed, they were crimes only of the
officers individually. The Government was innocent, in legal
contemplation, for no federal official is authorized to commit a
crime on its behalf.
7

ARGUMENT
Question 1.
Do courts of appeal exhibit a pattern and
practice of refusing to adjudicate EVERY issue
presented by the Class of disrespected,
unrepresented litigants filing appeals arising
from the underlying institutionalized IRS
record falsification program, and from the open
support thereof by involved U.S. district
judges?
Notice Requested
Petitioners respectfully request Justices of this Court ,
judicially notice, pursuant to FRE 210, the following
public record facts, all confirmed by resort to records
easily accessible to the Justices.
A. Notice Orders Dismissing Twelve Appeals
without adjudicating ANY issue raised
Petitioners request the Justices notice orders
dismissing TWELVE fully paid appeals by victims of
the underlying IRS record falsification program, and
of the open support thereof by involved district
judges. Notice is also requested of the fact that not
one issue raised in any of the appeals was
adjudicated. These TWELVE orders are incorporated
fully herein by reference:
■USCA,
■USCA,
■USCA,
■USCA,
■USCA,
■USCA,
■USCA,

D.C.
D.C.
D.C.
D.C.
D.C.
D.C.
D.C.

Circ.
Circ.
Circ.
Circ.
Circ.
Circ.
Circ.

15-5035 Ellis v. Comm’r,
16-5233 McNeil v. Comm’r,
16-5308 DePolo v. Ciraolo,
17-5054 Crumpacker v. Ciraolo,
17-5055 McGarvin v. McMonagle,
17-5056 Podgorny v. Ciraolo,
17-5057 DeOrio v. Ciraolo,
8

■USCA, D.C. Circ. 17-5058 Dwaileebe v. Martineau,
■USCA, 9th Circuit 18-17217 Ford v. USA,
■USCA, 8th Circuit 19-2985 Kurz v. USA, and
■USCA, 9th Circuit 21-35125 Howe v. USA.
■USCA, 9th Circuit 21-70662 Howe v. The Hon.
David C. Nye.13
B. Notice Proceedings in U.S. v. Ford, 17-00187
Petitioners request the Justices notice that in the
U.S.
v.
Ford,
17-00187,
forfeiture
case
unrepresented14 Defendant Melba Ford secured from
IRS during discovery incontrovertible evidence
proving that no assessment was prepared/signed by a
duly authorized representative of the Secretary on
any date concerning her and the year in question,
(2003). Instead, IRS produced irrefutable evidence in
discovery that IRS’ Sun Microsystem computer
automatically created every relevant document
concerning her alleged liability, none of which were
signed by a duly authorized delegate of the Secretary
of the Treasury. [See Ford sworn Brief on Appeal. 1817217, Dkt. Entry 17, pg. 24]
Moreover, IRS-provided evidence proved that no
substitute income tax return was prepared on any
date shown in IRS’ falsified digital and paper
documents concerning Ms. Ford.
The Justices are requested to also notice that in
Ford, The Hon. District Judge Dale Drozd entered
into the record his finding that “a duly authorized
13 It is impossible to discern from the “orders” what issues were
raised in the appeals, since none were mentioned, let alone
adjudicated.
14 Her motions for appointment of counsel, both at the district
level and on appeal, were denied.
9

delegate of the Secretary” “prepared an assessment”
concerning Ford and 2003 on “Feb. 26th, 2007” (See
Drozd holding, 17-00187, Doc. 70, Order Granting
Summary Judgment. Pg. 5, line 9, et seq.), when no
evidence supported his finding, [See Record, All], and
overwhelming evidence provided by IRS in discovery
controverted his “finding’Vfabrication.
C. Notice Proceedings in Ninth Circuit Anneal.
Ford v. U.S.. 18-17217
As requested above, Petitioners also request the
Justices notice Ms. Ford’s appeal to the Ninth
Circuit, (18-17217), which was denied while ignoring
EVERY issue she raised, i.e., the Panel ignored the
extensive, incontrovertible evidence supplied by the
IRS and presented by Ms. Ford proving the Service’s
Sun-microsystems computer auto-generated all
documents supporting the Government’s case.
D. Notice the outcome of Ninth Circuit anneals bv
Mr. Ebenezer Howe (21-35125 and 21-70662)
Petitioners request the Justices notice that the Ninth
Circuit recently denied two appeals filed by Mr.
Howe, (listed above), while offering incoherent, un­
intelligible explanations in what appear to be
deliberate violations of his due process right to
meaningful access to courts.
E. Notice the pattern and practice was initiated
under the leadership of then-D.C. COA Chief
Judge Merrick Garland in 2015
The Justices are requested to notice that the first
Class appeal dismissed without addressing ANY
issue raised, occurred 2015 in the United States
Circuit Court of Appeals for the District of Columbia
10

Circuit, under leadership of Mr. Merrick Garland,
then holding the Honorable position of Chief Judge.
Current-Chief Judge Srinivasan either himself wrote,
or directed the Clerk to produce, the denial of relief in
15-5035, Ellis v. Commissioner, wherein he used the
wrong standard of review, refused to address EVERY
issue raised on appeal, and issued the “order” over
the names of Circuit judges who likely had
NOTHING to do with the “orders”.15
F. Notice: The Outcome of Direct Anneal is
Foregone
Finally, Petitioners request the Justices notice that
the outcome of appeal 21-5132 to the Circuit Court of
Appeals for the D.C. Circuit is ALREADY PRE­
DETERMINED, as proven by the pattern of multiple
denials of appellate relief in that Circuit cited above.
No issue Petitioners raise on appeal in 21-5132 will
be adjudicated. That is, direct appeal will be denied
without addressing the pattern and practice begun
under the leadership of then-Circuit Chief Judge
Merrick Garland and (now-Circuit Chief Judge)
Padmanabhan ”Sri” Srinivasan.
Question 1 Summary
It cannot be denied; the public record evidence is
irrefutable. Courts of appeal nationwide refuse to
adjudicate EVERY issue raised on appeal by the
Class of disrespected, unrepresented litigants
15 In denying appellate relief in 15-5035, Mr. Srinivasan
included the name of The Hon. Janice Rogers Brown, an
outstanding jurist and excellent author, who excoriated IRS
misconduct in other appeals. [See 15-5035, Doc. 1584555] She
VERY likely had NOTHING to do with the “order” issued
over/in her name, which used the wrong standard of review.
11

suffering from the underlying IRS record falsification
program, and from the open support thereof by
involved district court judges.
Moreover, since that pattern does not exist in cases
involving represented litigants, the practice
demonstrates a vicious class-based animus and
assault on the rights of unrepresented Americans.
Question 2.
When U.S. district judges are credibly accused
of explicit acts of misconduct, via sworn §§455
and 144 motions, (of colluding extra-judicially
to (a) manipulate the dockets of five U.S. judges
in order to (b) conceal/prolong an underlying
government record falsification program, to (c)
falsify the record of six cases simultaneously
with respect to relief requested, in order to (d)
protect their appellate records and to (e) justify
terminating access to courts by their litigant/
victims, etc.), should the judges recuse from
further participation in cases involving those
litigants?
A. Relevant SWORN Allegations justifying
recusal
Pursuant to FRE 201, Petitioners request the
Justices notice they moved for recusal of the Hon.
Christopher Reid Cooper pursuant to 28 U.S.C. §§455
and 144 while presenting the following explicit, nonconclusory SWORN allegations, under penalty of
perjury:16
16 For details, please see D.C. COA 21-5132, Doc.1913465, Sept.
9, 2021 Appellants (sworn) Response to Motion for Summary
Affirmance. Pg. 4, et seq.
12

“Christopher Reid Cooper committed the
following SIX acts in support of his apparent
collusion to obstruct the jurisdiction of his
Court and to conceal/prolong the underlying
IRS record falsification program:
■ On September 27, 2016, he met extrajudicially with Amy Berman Jackson and
he agreed to manipulate the dockets of five
U.S.D.C. judges in the District of Columbia,
to consolidate on his docket a total of six
then-current cases arising from the IRS
record falsification program;
■ He agreed with Ms. Jackson to falsify the
record of each of the six cases in precisely
similar manner, with respect to the relief
sought;17
■ He consolidated all six cases on his docket
per his extra-judicial agreement with Ms.
Jackson;
■ He improperly denied motions by his six
victims to consolidate the cases as a Class
and to appoint counsel to represent the
Class;
17 Specifically, the evidence proves the penultimate goal of the
collusion was to make the record of each case reflect that
victims were supposedly seeking to enjoin IRS from preparing
substitute income tax returns, although that fabrication
directly contravenes each victims’ complaint allegation that IRS
never prepares substitute income tax returns for those IRS
labels “non-filers”. Hence, the involved judges brought six cases
simultaneously within the prohibitions of the Anti-Injunction
Act to obstruct the jurisdiction of their courts and prevent their
victims from terminating the falsification of IRS digital and
paper records making it appear IRS prepares substitute income
tax returns concerning “non-filers” when it doesn’t.
13

■ He adopted and quoted verbatim the
fabrication of Amy Berman Jackson who
dismissed the original Class case, Ellis v.
Commissioner after falsifying the record
with respect to relief sought, 18 in his
Opinion and Order [16-cv-2089, Doc. 5, pg.
4], dated December 31, 2016, and
■ Christopher Reid Cooper was aware that no
Class victim in the SIX cases before his
bench sought to enjoin IRS from preparing
substitute income tax returns, since they
discovered instead that no such thing
occurs, and that IRS merely falsifies its
records concerning victims to make it
appear IRS prepares them.
■ On April 19, 2017, as the ultimate goal of
his collusion with Ms. Jackson, he
sanctioned Petitioners Ellis and McNeil,
based on HIS fabrication of the relief they
18 To quote the Honorable Judge Jackson:
“At bottom, the goal of this action is to enjoin the IRS
from creating SFRs without the permission of the
taxpayer and to enjoin DOJ from using those SFRs and
their
self-authenticating
certifications
in
tax
prosecutions. So plaintiff is seeking to stop the IRS from
engaging in conduct that aids in the assessment and
collection of taxes. The use of the [substitute] return
directly relates to the tax assessment and is certainly
an activity that resulted in the imposition of the tax
liability.” Ellis v. Comm’r, 67 F. Supp. 3d 325, 332-33
(D.D.C. 2014) (internal quotations omitted), aff d, Ellis v.
CIR, 622 Fed. Appx. 2 (D.C. Cir. 2015).
Contrary to that fabrication, Ellis sought only to enjoin IRS
from falsifying records concerning him to reflect IRS’ pretended
preparation of substitute income tax returns, when no such
thing exists.

14

sought, to conceal his misconduct with Amy
Berman Jackson and obstruct Petitioners’
efforts to assist rights-raped victims of the
IRS program.
Restated, Petitioners have credibly alleged, under
penalty of perjury, that The Hon. Christopher Reid
Cooper committed multiple apparent felonies while
issuing fraudulent orders in support of his collusion
with The Hon. Amy Berman Jackson to obstruct the
jurisdiction of their courts and their victims’ rights to
adjudicate the underlying institutionalized IRS
record falsification program used to destroy their
lives.
Yet, Mr. Cooper refuses to recuse.
THREE Reasons for Granting Petition
These three
Petition:

reasons justify granting this

1. The pattern and practice of involved Court Of
Appeals judges violates the Evarts/Judiciary Acts
and the rights of litigants to meaningful access to
courts.
2. The practice is producing utter chaos in district
courts.
3. Judges who are credibly accused via sworn,
explicit §§455 and 144 motions of committing
arguable misconduct in support of a litigant MUST
recuse from litigation involving their victims.

15

Reason 1. The pattern and practice of involved
COA judges violates the Evarts/Judiciary Acts
and the rights of litigants to meaningful access
to courts.
The independence and impartiality of the judiciary is
under open assault. In 1891, Congress enacted the
Evarts Act, establishing courts of appeal to ensure
litigants received justice, if they feel aggrieved by
actions of district judges. Even today, the courts of
appeal proclaim their existence ensures the
independence and impartiality of the judiciary.19 A
stated goal of the creation of appellate courts was to
make the judiciary self-policing. They have failed.
The pattern and practice of courts of appeal
nationwide, as proven by review of the orders
incorporated and cited above, matches the
antinomian practice established in 2015 by the U.S.
Court of Appeals for the D.C. Circuit under the aegis
of Mr. Merrick Garland, with the direct involvement
of now-Chief Judge “Sri” Srinivasan.20
That pattern and practice of courts of appeal is
destroying the reason appellate courts were created.
It is also eviscerating the due process rights of the
Class of unrepresented victims complaining of the
19 See website of U.S. Courts, Courts of Appeal:
https://www.uscourts.gov/educational-resources/educationalactivities/us-courts-appeals-and-their-impact-vourlife#:~:text=The%20appeals%2Qprocess%20
20 As noted above, Mr. Srinivasan denied appellate relief in 155035 by issuing an ‘order’ using the wrong standard of review,
which addressed no issue raised on appeal, and which listed as
signatories two Judges who likely had nothing to do with his
‘order’ (such as the talented Hon. Janice Rogers Brown, she of
exquisite integrity and unexcelled writing skill!).
16

underlying IRS record falsification program, and of
the open support thereof by involved district judges.
Importantly, such pattern and practice does NOT
occur in cases involving represented litigants, hence
the scheme by Circuit judges such as Mr. Merrick
Garland and Mr. Padmanabhan Srinivasan is an
invidious, class-based assault on the due process
rights of unrepresented Americans who can’t afford
counsel at the exorbitant going rate.
Reason 2. Pattern and Practice of COAs is
causing Unimaginable Chaos in District Courts.
The pattern and practice is empowering district court
judges to violate the due process rights of litigants in
nearly unthinkable, outrageous manners. Because
district judges know unrepresented litigants have no
access to meaningful appellate relief, the judges are
writing and speaking gibberish,21 fabricating facts,22
21 Three examples prove the point. In a Ninth Circuit case, the
Hon. Judge Brennan held: “Lastly, respondent argument that
purported falsified his tax records is unavailing.” [See U.S. v.
Torrance, 18-1631, Doc. 54, pg. 2, 2nd f, errors in orig.]
For a second example, during a hearing on October 8, 2020 in
U.S. v. Torrance [Case 18-1631], a shocked, tongue-tied
Magistrate (Peterson) blurted:
“The issue you are - your points are about the answer
to the question. Whether they are - the IRS is indeed
correct that you owe money. Whether they are indeed
correct whether they have - the specific amounts at
issue, and I don’t know if any of those are - are
correct. You know, who knows? I don’t know. That
information certainly isn’t before me. You are alleging
a large conspiracy falsification issue.” [See Hearing
Transcript, Doc. 69, Pg. 22, Line 13, et seq.]
For a third example, please see Eighth Circuit case Kurz v. U.S.,
19-310. In dismissing Mr. John Kurz’ case wherein he alleged
IRS’ institutionalized falsification of records damaged him, the
17

and violating every applicable precedent,
assistance of involved Circuit judges.23

with

late Hon. District Judge Shaw fabricated: “Mr. Kurz’s Rule 60
motion alleges that the government... perpetrated a fraud upon
the Court by reducing Mr. Kurz to a ‘standard tax-defier’.” [19310, Doc. 61, Pg. 4, 2nd Full
1st sent.] Kurz filed no such
gibberish. In income tax cases against unrepresented litigants
district judges are becoming aware their victims have only
physical access appellate courts, but NOT to adequate, effective,
MEANINGFUL appellate relief.
22 Three examples will prove the point. First, as noted above,
the Honorables Jackson and Cooper fabricated a false version of
relief sought by Class victims, to bring their cases within the
prohibitions of the Anti-Injunction Act, in order to obstruct the
jurisdiction of their courts over the underlying IRS record
falsification program damaging their victims.
Second, in the ongoing litigation concerning a Coram Nobis
Motion filed by Mr. Gregory Darst in the Middle District of
Florida, The Honorable Mary S. Scriven justified her
“termination” of his motion and her conversion of it into a §2255
petition by claiming as justification “internal administrative
procedures of the Middle District of Florida”. No such
procedures exist. §2255 petitions can only be filed by those in
custody, which ended for Mr. Darst nearly seven years ago.
Third, in an ongoing forfeiture case in the U.S. District Court
for the District of Idaho, 19-421, U.S. v. Howe, The Hon.
Magistrate Candy Dale literally fabricated, then entered her
‘finding’ into the record, that IRS supposedly prepared
assessments concerning Mr. Howe on September 12, 2016,
despite the fact that no such assessments appear in the record
before her bench, (See Record, All). The lawlessness engendered
by the pattern and practice of COAs nationwide is nearly
unimaginable.
23 See for example, Mr. Howe’s appeal [9th Cir., 21-35125] of The
Hon. Judge David C. Nye’s repeated, point-blank refusals of
Howe’s motions seeking to compel production, pursuant to
FRCP Rule 12(b)(1) of the summary record of assessments
supposedly prepared by IRS on September 12, 2016. In that
appeal, the Ninth Circuit allowed Judge Nye to ignore and
violate Ninth Circuit precedent authorizing Rule 12(b)(1)
factual attacks on false complaint allegations per Safe Air for
18

Reason 3. District judges have no authority to
deny sworn recusal motions explicitly alleging
arguably felonious acts committed in support
of the Government.
Finally, the Court should grant this petition to
ensure district judges are aware that disrespected,
unrepresented litigants have the right to impartial
adjudication by judges with respect for the
separation of powers and the Rule of Law.
When litigants properly seek the recusal of judges,
pursuant to authorized procedures, alleging under
penalties of perjury acts of misconduct by
adjudicators, the judges must recuse.
Petitioners have not been vague in their allegations,
all presented under penalty of perjury. Accordingly,
when district judges collude extrajudicially to
manipulate dockets, to falsify the record of cases
with regard to relief sought in order to bring the
cases by fraud within the prohibitions of the AntiInjunction Act, and then sanction their victims to
denigrate/destroy their cause and prevent them from
assisting other rights-raped victims, the judges
should recuse.
Relief Requested
Petitioners request the Court use its unquestioned
power pursuant to Rules 10 and 11 to

Everyone v. Meyer, 373 F. 3d 1035 - Court of Appeals, 9th
Circuit 2004.
23 Olmstead v. United States, 277 U.S. 438.
19

1. Remove appeal 21-5132 from the U.S. Circuit
Court of Appeals for the District of Columbia
to this Court; to
2. Confirm the pattern and practice of courts of
appeal nationwide refusing to adjudicate
EVERY issue raised by the Class of
disrespected,
unrepresented
litigants
complaining of the IRS record falsification
program, and the open support thereof by
involved district judges; to
3. Confirm the pattern began in 2015 in the
United States Circuit Court of Appeals for the
District of Columbia Circuit during the
leadership of Merrick Garland with direct
involvement of Padmanabhan Srinivasan; to
4. Terminate that pattern and practice
nationwide,
pursuant to
the
Court’s
unquestioned supervisory power authorized in
SCR 10(a); and to
5. Hold that district judges MUST recuse in the
face of well-pled motions presenting SWORN
non-conclusory, explicit allegations of arguably
felonious misconduct.
Finally, Petitioners request the Court order any
further relief it finds just and equitable, under these
most difficult and absolutely extraordinary
circumstances.

20

Respectfully submitted,

AacC/S?,

As

'A

^Michael B. Ellis
In propria persdncv
5052 NECR 2020
Rice, Texas 75155
(903) 326-6263

Robert A. McNeil
In propria persona
729 Grapevine Hwy #148
Hurst, Texas 76054
(713) 806-5199

21

Verification/Declaration
Comes now Michael B. Ellis and Robert A. McNeil
declaring under penalty of perjury, pursuant to 28
U.S.C. §1746, that “All the facts stated in the
foregoing
“PETITION
FOR
WRIT
OF
CERTIORARI ” are absolutely true and correct
to the very best of my knowledge and belief, that I
have personal knowledge of almost every fact alleged,
that they are material, admissible and that I am
competent to testify thereto. Hence, every fact stated
above, and every inference derived therefrom, is
absolutely true and correct, and that I am presenting
this Declaration under penalty of perjury.
So HELP ME GOD.
Executed on October 8, 2021

ichael B. Ellis

Robert A. McNeil

22

